Report No DODIG-2012-035             December 21, 2011




        American Recovery and Reinvestment Act -
        Improvements Needed in Implementing the
            Homeowners Assistance Program
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AVM                           Automated Valuation Model
BRAC                          Base Realignment and Closure
HAP                           Homeowners Assistance Program
HAPMIS                        Homeowners Assistance Program Management
                                 Information System
OMB                           Office of Management and Budget
PCS                           Permanent Change of Station
PFMV                          Prior Fair Market Value
USACE                         U.S. Army Corps of Engineers
USD(AT&L)                     Under Secretary of Defense for Acquisition, Technology,
                                 and Logistics
                                     INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA. VIRGINIA 22350-1500




                                                                         DEC 2 1 2011
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION, 

                 TECHNOLOGY, AND LOGISTICS 

              UNDER SECRETARY OF DEFENSE (COMPTROLLER)I CHIEF 

                 FINANCIAL OFFICER, DOD 

              AUDITOR GENERAL, DEPARTMENT OF THE ARMY 


SUBJECT: American Recovery and Reinvestment Act- Improvements Needed in
         Implementing the Homeowners Assistance Program
         (Report No. DODIG-20 12-035)

We are providing this report for review and comment. The American Recovery and
Reinvestment Act of2009 allocated $555 million and the National Defense Authorization Act of
2010 authorized an additional $300 million for the Expanded Homeowners Assistance Program.
The U.S. Army Corps of Engineers generally made accurate payments to eligible applicants in
accordance with the interim final rule published in the Federal Register and implementing
guidance. However, controls over payment processing, information reporting, and managing the
backlog of unprocessed applications could be improved. We considered management comments
on a draft of this repmi when preparing the final repmi.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. Most of the U.S.
Army Corps of Engineers comments were responsive. However, the COI1Ullents on
Reconunendation C.I were not responsive. Therefore, we request additional comments on
Recommendation C.I by January 23, 2012.

Ifpossible, please send a .pdffile containing your comments to audfmr@dodig.mil. Copies of
your comments must have the actual signature of the authorizing official for your organization.
We cannot accept the ISignedl symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868 (DSN 664-5868).



                                   p~ Q,J11~
                                    Patricia A. Marsh, CPA 

                                   Assistant Inspector General 

                              Financial Management and Repmiing 

Report No. DODIG-2012-035 (Project No. D2010-D000FI-0159.000)                      December 21, 2011


                     Results in Brief: American Recovery and
                     Reinvestment Act—Improvements Needed
                     in Implementing the Homeowners
                     Assistance Program



What We Did
We determined whether the U.S. Army Corps of                     been eligible to receive HAP benefits.
Engineers (USACE) processed Homeowners                           However, because management took action
Assistance Program (HAP) applications and                        during the course of our audit, we are not
payments in accordance with the interim rule                     making a recommendation.
published in the Federal Register and
                                                                 USACE had limited success in managing the
implementing guidance. The American
                                                                 backlog of eligible HAP applicants. As of
Recovery and Reinvestment Act of 2009
                                                                 February 23, 2011, USACE had paid
allocated $555 million to expand HAP, and the
                                                                 4,825 applicants $725.5 million, but had a
National Defense Authorization Act of 2010
                                                                 backlog of 4,897 eligible applicants. This
authorized an additional $300 million.
                                                                 occurred because USACE Headquarters had not
                                                                 developed a detailed plan for managing the
What We Found                                                    backlog. As a result, DoD did not maximize its
USACE district personnel generally made                          ability to offset the losses of qualifying Service
accurate payments to eligible applicants in                      members and civilians.
accordance with the interim rule and
implementing guidance. However, district                         What We Recommend
personnel processed and paid HAP applications
                                                                 We made eight recommendations in this report,
using inconsistent policies and procedures.
                                                                 including that the Director of Real Estate,
USACE did not issue detailed guidance on how
                                                                 USACE, issue detailed guidance for the uniform
to process payments consistently among the
                                                                 processing of HAP payments; review payment
district offices, and district personnel did not
                                                                 information and make corrections as necessary;
effectively use management control checklists
                                                                 and develop a plan for managing the backlog.
to detect mistakes and ensure program
compliance. As a result, of 64 payments
reviewed, totaling $15.8 million, district                       Management Comments and
personnel underpaid three applicants $9,562.75                   Our Response
and overpaid five applicants $1,308.01. In                       Most of management comments were
addition, they did not fully support payments for                responsive to the recommendations; however,
seven applicants totaling $28,558.03.                            comments on the recommendation to develop a
                                                                 plan for managing the backlog were not
District personnel classified 680 * of 2,479                     responsive. We request the USACE Director of
applicants as ineligible in the Homeowners                       Real Estate provide additional comments on
Assistance Program Management Information                        Recommendation C.1 by January 23, 2012.
System as of January 31, 2010, who may have                      Please see the recommendations table on the
                                                                 back of this page.
*
    See Appendix C for details of statistical projections.
                                                             i
Report No. DODIG-2012-035 (Project No. D2010-D000FI-0159.000)   December 21, 2011

Recommendations Table

         Management                 Recommendations        No Additional Comments
                                   Requiring Comment                Required
Director of Real Estate, U.S.   C.1                       A.1.a, A.1.b, A.1.c, A.1.d,
Army Corps of Engineers                                   A.2, A.3, and C.2


Please provide comments by January 23, 2012.




                                          ii
Table of Contents
Introduction

       Audit Objective                                                    1


       Background for HAP Under the Recovery Act                          1

       Internal Controls Over HAP                                         3


Finding A. Controls Over HAP Payments		                                   4


       Types of Benefit Payments                                           4

       District Personnel Processed Benefit Payments                       5

       Sample Selection                                                    5

       USACE Generally Made Accurate Benefit Payments                      6

       Inconsistencies in Processing Payments                              6

       Conclusion                                                         12 

       Recommendations, Management Comments, and Our Response             12 


Finding B. Classifying and Reporting Ineligible Applicants		              14 


       Information on Ineligible Applicants                               14 

       Sample Selection                                                   15 

       Problems in Determining the Eligibility Status of Applicants       15 

       Impact of Inaccurate HAPMIS Information                            16 

       Management Corrective Actions                                      17 


Finding C. Managing the Backlog of HAP Applications		                     18 


       Backlog Developed While Districts Added Staff                      18 

       Lack of a Detailed Plan for Managing Backlog                       20 

       USACE Required Applicants to Find Own Buyers                       21 

       Independent Review of Spending Plan for HAP                        22 

       Conclusion                                                         22 

       Recommendations, Management Comments, and Our Response             23 


Appendices

       A. 	Audit Scope and Methodology                                    26 

              Use of Computer-Processed Data                              26 

              Use of Technical Assistance                                 27 

              Prior Coverage of the Recovery Act                          27 

       B. Targeted Recipients, Eligibility Requirements, and Benefits		   28 

       C. Statistical Sampling Methodology		                              33 

       D. Incorrect and Unsupported Payments		                            35 

Table of Contents (cont’d)
Management Comments

     U.S. Army Corps of Engineers   38
Introduction
Audit Objective
This is one in a series of audits on the American Recovery and Reinvestment Act of 2009
(Recovery Act). The primary objective of the audit was to determine whether DoD and
its Components were planning and implementing the Recovery Act by meeting the
requirements in the Recovery Act, Office of Management and Budget (OMB)
Memorandum M-09-10, “Initial Implementing Guidance for the American Recovery and
Reinvestment Act of 2009,” February 18, 2009, and subsequent related guidance. For
this audit, we determined whether U.S. Army Corps of Engineers (USACE) personnel
processed Homeowners Assistance Program (HAP) claims and payments in accordance
with the interim rule published in the Federal Register and implementing guidance. 1 See
Appendix A for a discussion of our scope and methodology and for prior audit coverage.

Background for HAP Under the Recovery Act
The President signed the Recovery Act into law on February 17, 2009.
        The purposes of this Act include the following:
            (1) To preserve and create jobs and promote economic recovery.
            (2) To assist those most impacted by the recession.
            (3) To provide investments needed to increase economic efficiency by
                spurring technological advances in science and health.
            (4) To invest		 in transportation, environmental protection, and other
                infrastructure that will provide long-term economic benefits.
            (5) To stabilize State and local government budgets, in order to minimize
                and avoid reductions in essential services and counterproductive state
                and local tax increases.

        . . . the heads of Federal departments and agencies shall manage and expend the
        funds made available in this Act so as to achieve the purposes specified . . .
        including commencing expenditures and activities as quickly as possible
        consistent with prudent management.

DoD Recovery Act Programs
Under the Recovery Act, Congress appropriated approximately $12 billion to DoD for
the following programs: Energy Conservation Investment; Facilities Sustainment,
Restoration, and Modernization; Homeowners Assistance; Military Construction; Near
Term Energy-Efficient Technologies; and USACE Civil Works. Of the $12 billion,
$555 million was allocated to HAP to provide benefits to eligible Service and DoD




1
  The interim rule continued to authorize HAP in accordance with the Demonstration Cities and
Metropolitan Development Act of 1966 (commonly referred to as traditional HAP) and temporarily
expanded the program in accordance with the Recovery Act. In this report, unless otherwise noted, HAP
refers to the expanded program.

                                                   1

civilians who faced financial losses when selling their primary residence during the
recent housing downturn. Congress authorized an additional $300 million to be used for
HAP in the National Defense Authorization Act of 2010.

Homeowners Assistance Program
The Demonstration Cities and Metropolitan Development Act of 1966 established HAP.
The program assists eligible Service and civilian Federal employee homeowners
adversely impacted by a decline in real estate market values directly related to the closure
or reduction in scope of operations at a military installation subject to Base Realignment
and Closure (BRAC). The last BRAC was in 2005 (BRAC 2005). The Secretary of
Defense prescribes policies for administering HAP.

The Recovery Act temporarily expanded traditional HAP to offset some of the losses
incurred by Service members, civilian personnel, and surviving spouses when they sold
their homes, the Government purchased their homes, or a lending institution foreclosed
on their home mortgages.

Details of HAP were published in the Federal Register as an interim final rule (32 Code
of Federal Regulations, Part 239 [2009]) on September 30, 2009. 2 The interim final rule
(the interim rule) authorized DoD to provide financial assistance to offset financial losses
of homeowners who needed to sell their homes in conjunction with permanent change of
station (PCS) moves, base closures, combat injuries, or a loss of spouse in the line of
duty. The interim rule outlined the benefit and eligibility requirements of applicants as
well as the responsibilities of DoD personnel for administering HAP. DoD issued the
final rule on November 16, 2010. 3

Those eligible for benefits under HAP include the following qualified homeowners.

    •		 Service members and DoD employees who are wounded, injured, or ill while
        deployed (wounded warriors);
    •		 surviving spouses of fallen DoD personnel;
    •		 Service members and DoD employees impacted by BRAC 2005; and
    •		 Service members who are required to permanently relocate during the mortgage
        crisis.

Qualifying homeowners must submit applications and demonstrate that they meet
eligibility requirements. See Appendix B for more details about these eligibility
requirements and the benefits of HAP.



2
  An interim final rule is designed to respond to an emergency situation and is usually followed by a final
rule document that confirms that the interim rule is final, addresses comments received, and includes
further amendments.
3
  Because the effective date for the guidance was January 18, 2011, we did not use the final rule as
guidance in our review of payments; however, we assessed major differences between interim rule and the
final rule. For more information on the differences, see Table B-3 in Appendix B.

                                                     2

The Deputy Secretary of Defense for Installations and Environment, under the authority,
direction, and control of the Under Secretary of Defense for Acquisition, Technology,
and Logistics (USD[AT&L]) is responsible for prescribing administrative and operational
policies as well as serving as the senior appeals authority for appeals submitted by
applicants. The Deputy Assistant Secretary of the Army for Installations, Housing and
Partnerships is the DoD Executive Agent for administering, managing, and executing
HAP. The USACE Director of Real Estate, acting for the Chief of Engineers, was
delegated authority and responsibility for the execution of HAP. USACE Circular No.
405-1-18, “Homeowners Assistance Program,” October 10, 2008, outlines procedures for
implementing traditional HAP.

Three USACE district offices in Sacramento, California; Fort Worth, Texas; and
Savannah, Georgia, were responsible for processing the HAP payments. They:

   •		 accepted applications for HAP benefits,
   •		 determined the eligibility of each applicant for HAP assistance using the criteria
       established by the Deputy Secretary of Defense for Installations and Environment,
   •		 determined amounts to be paid consistent with DoD policy, and
   •		 made payments or authorized and arranged for acquisition or transfer of the
       applicant’s property.

The Sacramento District Office made the first HAP payment in October 2009. As of
February 23, 2011, the three USACE district offices had 119 people processing HAP
applications. As of the same date, DoD reported that there were 9,722 eligible applicants,
and $725.5 million had been paid on 4,825 claims. The average claim paid was $150,375
and most eligible and paid applicants were Service members undergoing a PCS. District
personnel used the Homeowners Assistance Program Management Information System
(HAPMIS) to calculate benefits and to track and report program information.

Internal Controls Over HAP
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses related to the audit objective. USACE Headquarters did not issue detailed
guidance on how to process payments consistently among the district offices, and
USACE districts did not effectively use supervisory reviews and management control
checklists to detect mistakes and ensure program compliance. USACE personnel initially
denied some applicants from receiving HAP benefits because district personnel used
erroneous home valuation data to make decisions regarding applicants’ eligibility status
and did not promptly request the additional information needed to reevaluate their
eligibility status once updated data became available. In addition, USACE Headquarters
had not developed a detailed plan for managing the backlog of applications. We will
provide a copy of the report to the senior official responsible for internal controls in the
Department of the Army.


                                             3

Finding A. Controls Over HAP Payments
USACE district personnel (district personnel) generally made accurate HAP payments to
eligible applicants in accordance with the interim rule and implementing guidance.
However, district personnel processed and paid HAP applications using inconsistent
policies and procedures. Inconsistencies existed because:

    •		 USACE Headquarters did not issue detailed guidance on how to process


        payments consistently among the district offices, and 


    •		 USACE districts did not effectively use supervisory reviews and management
        control checklists to detect mistakes and ensure program compliance.

As a result, of the 64 payments reviewed, totaling $15.8 million, district personnel
underpaid three applicants $9,562.75 and overpaid five applicants $1,308.01. In addition,
they did not fully support seven payments, totaling $28,558.03, involving home
improvements and closing costs.

Types of Benefit Payments
Under HAP, district personnel paid benefits to qualified applicants to compensate for
losses incurred on the sale of their primary residences. USACE paid benefits under three
circumstances. 4

     •		 Private Sale. The private sale benefit payment is 90 or 95 percent of the Prior
         Fair Market Value (PFMV) of the applicant’s home, minus the sales price, plus
         applicable closing costs. 5

     •		 Government Acquisition. 6 USACE can purchase the home if the purchase price
         is not enough to pay off the mortgage or if the applicant is unable to find a buyer
         for the home. If the Government purchases the home, USACE will pay the
         benefit either directly to the lender in exchange for the property or to the
         applicant if the benefit is greater than the mortgage payoff. In most cases, the
         Government buys the home for the amount equal to the mortgage and
         immediately sells it to a buyer for the current fair market value. The Government




4
  Of the 4,825 applicants who received benefits as of February 23, 2011, 3,096 applicants sold their homes


through private sales, 1,698 applicants sold their homes through Government acquisitions, and


31 applicants disposed of their homes through foreclosures.


5
  PFMV is the applicant’s purchase price plus documented home improvements. For private sales,


permanently reassigned members of the Armed Forces and military and civilians affected by BRAC 2005 

should be reimbursed using 90 percent of the home PFMV. For wounded warriors and surviving spouses,


the reimbursable amount is computed using 95 percent of the home PFMV.


6
  In most cases, DoD required applicants to have a buyer who was willing to buy the home from the


Government. DoD did not require a buyer for the sale of homes acquired from wounded warriors or


surviving spouses.



                                                     4

         acquisition benefit is the unpaid mortgage amount, plus applicable closing costs;
         or 75 or 95 percent of the PFMV, minus the sales price, plus applicable closing
         costs. 7

    •		 Foreclosure. In the case of a foreclosure, USACE pays the benefit to the
        applicant or on behalf of the applicant for expenses and liabilities resulting from
        foreclosure.

See Appendix B for more details about eligibility determinations and benefit calculations.

District Personnel Processed Benefit Payments
The three USACE district offices that processed HAP applications collected information
from applicants to identify eligible candidates for the program. Once eligibility was
established, district personnel used HAPMIS to calculate benefits. A district office’s
HAP Department evaluated available information to determine whether a private sale or a
Government acquisition was the best option for the applicant. A district office could also
use its Legal Department to help process applications, especially in cases where district
personnel determined that a Government acquisition was the applicant’s best option.

After calculating benefits, USACE district personnel requested a check from the USACE
Finance Center in Millington, Tennessee. Depending on the circumstances, district
personnel sent the check to the applicant, lender, or escrow company conducting
closings. District personnel maintained documentation supporting the applicant’s
eligibility status and the calculated benefit and payment information in folders. District
personnel also used HAPMIS to record information regarding the eligibility status of the
applicant and payment information.

Sample Selection
To determine whether USACE was making accurate HAP payments, we selected a
sample of 64 payments, totaling $15.8 million, from a universe of 605 HAP payments,
totaling $53.8 million, marked as paid in HAPMIS between October 13, 2009, and
January 31, 2010. We used the criteria in the interim rule to determine if applicants were
eligible and payment amounts were correct. Details concerning sample methodology and
results are explained in Appendix C.




7
 For Government acquisitions, the reimbursable amount that permanently reassigned members of the
Armed Forces and military and civilians affected by BRAC 2005 are eligible for is computed using
75 percent of the home PFMV. For wounded warriors and surviving spouses, the reimbursable amount is
computed using 95 percent of the home PFMV.

                                                 5

USACE Generally Made Accurate Benefit Payments
District personnel generally paid accurate benefits to eligible applicants in accordance
with the interim rule and implementing guidance. Supporting documentation in applicant
                                                folders showed that all applicants
      District personnel generally paid         reviewed were eligible to receive HAP
  accurate benefits to eligible applicants in benefits. In addition, district personnel
    accordance with the interim rule and        calculated payments using the correct
           implementing guidance.               prior purchase price (private sale) or
unpaid mortgage amount (Government acquisition). However, district personnel
incorrectly calculated 8 of the 64 payments, resulting in three underpayments totaling
$9,562.75, and five overpayments totaling $1,308.01. Further, applicant folders did not
always contain adequate supporting documentation and district personnel did not fully
support seven payments totaling $28,558.03.

District personnel sometimes made incorrect payments when they miscalculated the
dollar value of home improvements and closing costs paid to the applicants. For
example:

   •		 Savannah District personnel did not reimburse an applicant for $8,000 for what
       the applicant claimed in an appeal were customary closing costs in his area.
       District personnel subsequently determined that he was correct and paid him the
       $8,000 plus $440 that USACE had underpaid because district personnel had used
       estimated rather than actual closing costs.

   •		 Fort Worth District personnel overpaid an applicant by $220.77 when they
       mistakenly included a vendor discount on a home improvement when calculating
       the PFMV of the applicant’s home.

In addition, personnel at the Sacramento and Fort Worth District Offices did not maintain
supporting documentation for all of the closing costs reimbursed to applicants. The
USACE Director of Real Estate should direct district personnel to review the incorrect
and unsupported payments we identified and take the necessary corrective actions. See
Appendix D for details on each of the 15 incorrect or unsupported sampled payments
found in our review.

Inconsistencies in Processing Payments
District personnel did not use consistent methods to determine the value of closing costs
reimbursed or to process payments for home improvements and Government acquisitions
because USACE Headquarters did not issue detailed guidance or standardized procedures
for implementing HAP and documenting supervisory reviews. New and inexperienced
personnel at district offices were initially unfamiliar with HAP and with how to use
HAPMIS. District personnel generally followed the interim rule and other USACE
guidance to determine eligibility and process payments, but did not use standardized



                                            6


checklists and forms to detect mistakes and ensure program compliance. Only the
Savannah District Office performed post-payment reviews to determine whether they
processed payments correctly and the applicant folders were complete.

Lack of Standard Guidance Hindered Payment Processing
USACE Headquarters had not issued detailed guidance for implementing HAP. In
June 2009, USACE Headquarters issued a draft version of Circular No. 405-1-18a,
“American Recovery and Reinvestment Act of 2009 Expansion of the Homeowners
Assistance Program.” The circular outlined program responsibilities and reiterated the
eligibility and benefits for applicants from the interim rule. USACE Headquarters
personnel stated that they would not finalize the draft circular until after DoD published
the final rule, and the section in the draft circular regarding the application processing
procedures did not contain detailed information for the districts to process payments. For
example, the draft circular did not contain instructions on how to process payments in
HAPMIS and did not consider closing costs or home improvements in computing
payments or identify the necessary supporting documents in the applicant folders to
support eligibility determinations and payment processing.

USACE Headquarters had issued detailed guidance in Circular No. 405-1-18,
“Homeowners Assistance Program,” October 10, 2008, for traditional HAP, but did not
place similar detailed procedures in USACE Circular No. 405-1-18a or issue other
                                        detailed guidance for implementing HAP. District
    USACE Headquarters … did
                                        personnel used the guidance in Circular No.
  not require the district offices to
                                        405-1-18a to make eligibility decisions and process
  follow the same procedures for
                                        HAP payments. On April 4, 2011, USACE
     processing HAP payments.
                                        Headquarters personnel stated that they were
working on finalizing a desk guide to issue to the district offices. DoD policy required
that those eligible to participate in HAP be treated fairly and receive benefits as quickly
as possible. Although USACE Headquarters held weekly telephone conferences with the
district offices for sharing information, it did not require the district offices to follow the
same procedures for processing HAP payments. Dissimilar practices among the district
offices allowed applicants to be treated differently, primarily in how district personnel
calculated reimbursable closing costs and home improvements and how they processed
Government acquisitions.

District Personnel Did Not Use Consistent Methods to Calculate
Closing Costs
The three district offices did not have consistent approaches for determining and
documenting which closing costs personnel should reimburse. The guidance in the
Recovery Act and the interim rule was limited and general in its discussion of closing
costs for private sales. 8 The guidance simply states that district personnel may reimburse



8
  The final rule contains some information that clarified what constitutes acceptable closing costs. The
final rule states that seller’s closing costs are typically loan payoff fees, real estate commissions, title
insurance, tax transfers, escrow and attorney fees, and any other fees set by local custom. It also states that

                                                       7


applicants for closing costs. District personnel stated that they reimbursed applicants for
“normal and customary” closing costs, but detailed guidance was generally not available
to guide district personnel in making determinations. The three district offices had
different procedures for calculating and documenting reimbursable closing costs.

    •		 Fort Worth District Office procedures did not state how personnel were to
        determine which closing costs were to be paid. However, Fort Worth District
        personnel had developed a 1-page guide that referenced the lines on the U.S.
        Department of Housing and Urban Development’s Settlement Statement
        (Settlement Statement). 9 The guide identified authorized charges and other
        charges that may have been authorized depending on applicant circumstances.
        The applicant folders at the Fort Worth District Office frequently did not contain
        the supporting documentation for all of the closing costs paid.

    •		 The Savannah District Office had procedures that detailed the closing costs that
        were normal and customary in the covered local areas where the closings were
        taking place. The Savannah District Office had also developed a worksheet
        district personnel used to identify key information regarding an applicant’s HAP
        benefits, including closing costs. However, district personnel did not reference
        the authorized charges to the Settlement Statement and many of the worksheets
        did not consistently identify the same closing costs for which personnel could
        reimburse applicants.

    •		 The Sacramento District Office did not have detailed guidance on the closing
        costs that were to be paid. Sacramento District personnel stated that they
        determined authorized charges by reviewing the paid amounts on the Settlement
        Statement. If the seller in the area where the home was being sold typically paid a
        particular cost, then they would include it for reimbursement. District personnel
        often highlighted reimbursed closing costs on the Settlement Statement and
        attached an adding machine tape that summarized the amounts paid to file
        documentation.

In February 2010, the Savannah District Office changed its local policy because of the
difficulties and time spent in determining normal closing costs customary in its 26-state
region. Savannah District personnel concluded that closing costs within the region varied
too much to standardize the types and amounts for closing costs considered allowable and
did not provide consistency among applicants. The new Savannah District policy stated
that they would pay closing costs up to 10 percent of the home sales price. They
calculated authorized closing costs by adding the seller’s costs, seller contributions to
buyer costs, and any earnest money that was paid out of closing costs and applied to real
estate commissions. Applicants had to justify closing costs in excess of 10 percent of the
sales price. Savannah District personnel submitted their analysis to USACE


HAP will pay sellers’ closing costs that are customary in the region where the home is located and for


limited contributions made toward the buyer’s portion of closing costs.


9
  The Settlement Statement shows all closing costs paid by the buyer and the seller.



                                                      8
Headquarters and recommended that USACE use it to develop a nationwide policy. As
of June 16, 2011, USACE Headquarters had not established it as guidance for all
districts.

Allowing the three district offices to follow different procedures resulted in
inconsistencies in closing costs reimbursed to the applicants in the sale of their homes.
For example, an applicant incurred $28,982 in closing costs on the sale of his
$306,500 home in June 2009. Savannah District personnel limited the amount that they
reimbursed the applicant for closing costs to $22,262, including $18,390 in sales
commission (6 percent of home sales price) even though the supporting documentation
showed that the applicant paid a sales commission of 7 percent ($21,455) when the home
sold. If one of the other district offices had processed the application, the amount of
commission would not have been limited. In addition, if the Savannah district personnel
had processed the application after February 2010, when the Savannah District Office
changed its policy, the applicant would have received the entire $28,982 paid for closing
costs, since that was less than 10 percent of the sales price. USACE Headquarters should
issue detailed standard procedures for determining what closing costs should be paid by
all district offices on private home sales.

District Personnel Needed to Process Home Improvement Benefits
Using Standardized Calculation Methods
USACE Headquarters did not issue guidance for reimbursing home improvement costs
until April 1, 2010. The guidance in the Recovery Act and the interim rule did not
specifically state that district personnel should consider the cost of home improvements
as the part of the home’s PFMV. In October 2009, the Savannah District Office sent
USACE Headquarters a proposed standard operating procedure covering home
improvements. The standard operating procedure referenced a USACE Headquarters
position that considered funds used to increase the home’s value to be a part of the initial
purchase price of the home.

District personnel routinely added the cost of home improvements to an applicant’s home
purchase price in calculating the PFMV of an applicant’s home. However, each district
office’s procedures differed in how they documented the reimbursement amount of home
improvements. The Savannah District Office used a worksheet for each applicant that
listed the home improvement costs. When completed, it identified the improvement,
indicated whether the improvement was accepted or denied, showed the approved cost of
the improvement, and if not accepted, a reason why the district personnel denied the
improvement for payment. The Sacramento District Office did not require that personnel
document the detailed decisions made regarding the home improvements accepted or
denied for payment. They calculated the cost of acceptable improvements on an adding
machine tape and included it in the applicant folder. Similarly, the Fort Worth District
Office used a simple spreadsheet to calculate the acceptable amount of home
improvement costs. Unlike the process followed by the Savannah District Office, the
methods used by Fort Worth and Sacramento District Offices did not provide an adequate
audit trail that could easily be followed and used to support decisions made and respond
to applicant requests for reconsideration for home improvement costs not paid. USACE

                                             9


Headquarters issued the proposed standard operating procedure as policy guidance on
April 1, 2010, but did not require district personnel to retroactively apply the guidance.

District Personnel Needed to Process Government Acquisitions
Using Standardized Procedures
USACE did not establish standard procedures for processing, paying, and documenting
Government acquisitions. Each district office had a unique approach to processing and
documenting these transactions.

   •		 The Sacramento District Office relied on escrow companies to complete the home
       sales. District personnel estimated the amount for the mortgage payoff and
       closing costs that was included in the benefit payment. Before the Sacramento
       District sent a check to the escrow company for the closing, the Legal Department
       reviewed the payments. After the escrow company completed the transaction
       based on the actual amounts, it refunded any excess mortgage payoff or closing
       costs to USACE. Typically, USACE received two or more checks after the sale
       was finalized. For each applicant, district personnel kept paperwork in one folder.
       The audit trail was not clear or practical to follow. Reconciliation worksheets for
       the Government acquisitions of all the check remittances and refunds did not
       support $2,109 paid to one applicant.

   •		 The Fort Worth District Office used the district’s Legal Department to prepare the
       actual closing documentation for the escrow companies to complete the home
       sales. If district personnel determined that a Government acquisition was the
       applicant’s best option, they assigned the case to their Legal Department. The
       Legal Department prepared the paperwork used for the closing and computed the
       amount of the check for the home closing. The Legal Department furnished the
       information to the HAP Department for filing in the applicant folder. However,
       the Legal Department often estimated HAP benefits and did not include support
       for all the closing costs paid. After closing, the district office received one check
       for the final home sale from the escrow company for the amounts paid for the
       mortgage payoff and to cover closing costs. For six of the payments, district
       personnel could not support $26,449 paid to the applicants in HAP benefits.

   •		 The Savannah District Office also worked closely with its Legal Department to
       determine the correct amount for mortgage payoff and closing costs. Unlike the
       Fort Worth District Office, HAP Department personnel were responsible for
       calculating the benefit. Typically, the district office received only one check back
       after the closing from the escrow company, for the sale of the home. The
       Savannah District Office kept two folders for each applicant, one for the purchase
       of the home and one for the sale of the home. Having separate folders for the
       purchase and sale of a home provided a complete audit trail of the two
       transactions.




                                             10


Allowing the three district offices to follow different procedures caused inconsistencies
in processing applications and making payments. Reviewers and auditors cannot
determine whether USACE paid benefits fairly because district personnel calculated
check amounts differently and maintained            Allowing the three districts offices to
documentation using inconsistent methods.            follow different procedures caused
USACE Headquarters should issue standard                inconsistencies in processing
procedures to process and support                    applications and making payments.
Government acquisitions.

The lack of well-defined, standard procedures for paying closing costs and home
improvements and for processing Government acquisitions limited USACE
Headquarters’ ability to ensure that district personnel paid all claims properly and
increased the risk for incorrect payment amounts. USACE Headquarters should issue
standard procedures for reimbursing and documenting closing costs and home
improvements and for processing and supporting Government acquisitions.

USACE Headquarters Needs to Improve Review Process
Although district personnel generally made accurate eligibility determinations and
accurate payments, many applicant folders did not contain complete documentation. For
example, 21 of the 64 applicant folders did not have evidence of supervisory review for
the eligibility determinations and another 19 applicant folders did not have supervisory
review of the computed payment amount. Some folders also did not have the information
necessary to determine accurate payment processing, such as the release of mortgage
liability and a copy of the payment checks. 10

Internal control standards in the Government Accountability Office’s “Standards for
Internal Control in the Federal Government,” November 1999, and USACE policy
guidance require that district personnel maintain documentation in an applicant’s folder
to support the applicant’s eligibility status, the calculated benefit, and payment
information. Effective supervisory reviews can compensate for the lack of experience of
personnel who process applications. In addition, only the Savannah District Office had
established a requirement for post-payment reviews designed to ensure that applicant
folders contained required documentation and to assess program compliance.

USACE Headquarters needs to ensure that the districts perform supervisory reviews of
eligibility, payment calculation, and the completeness of information in the applicant
folder. Districts should also perform post-payment reviews to ensure that all information
is included in the applicant folders and payments are proper and complete. The reviews
could also support required quarterly assessments of management controls.

USACE Fragmentary Order 22 to Operations Order 2009-11, “USACE Execution of the
American Recovery and Reinvestment Act 2009 (Management Controls),” November 9,


10
  For the payments without copies of the checks, we verified the payment amount by reviewing
information entered into the Corps of Engineers Financial Management System.

                                                  11

2009, requires district offices to complete a quarterly management control checklist.
Although checklist questions were directed more toward individual payments than the
overall process, the checklist could have been effectively used to evaluate management
controls and assess program compliance. However, the three district offices did not
effectively use the management control checklists completed in December 2009 and
March 2010 to assess compliance with the interim rule and implementing guidance.
Personnel responsible for completing the checklists did not indicate how they tested
management controls or identify which payments they reviewed to base their
conclusions. USACE Headquarters should periodically review the assessments made by
district offices to ensure that district personnel adequately support the conclusions
reached on the design and operational effectiveness of management controls over HAP.

Conclusion
From October 13, 2009, through January 31, 2010, USACE generally made accurate
payments using the interim rule. However, USACE Headquarters had not yet issued
detailed guidance or standardized procedures for implementing HAP. The lack of
well-defined, standard procedures for paying closing costs and home improvements and
for processing Government acquisitions limited the ability of USACE Headquarters to
ensure that district personnel fully supported, consistently computed, and properly paid
all claims. DoD published the final rule in the Federal Register on November 16, 2010.
The final rule changed some eligibility criteria and payment calculations that were in the
interim rule.

As of February 23, 2011, district offices had not fully processed 4,897 applications for
HAP benefits. To ensure that qualified HAP applicants are paid accurately and
consistently, the USACE Director of Real Estate should issue standard procedures for
processing and documenting home improvements and closing costs and for processing,
paying, and documenting Government acquisitions. The procedures should require
district personnel to conduct and document supervisory and post-payment reviews.
Because guidance for determining eligibility and making payments changed in the final
rule, it is important that information in HAPMIS and applicant folders is accurate and
complete so that processed applications for HAP benefits can be readily identified and
reviewed if needed. District office personnel should also review and correct the
erroneous and unsupported payments identified during our audit.

Recommendations, Management Comments, and
Our Response
A. We recommend that the Director of Real Estate, U.S. Army Corps of Engineers:

     1. Issue detailed standard procedures for the uniform processing of
Homeowners Assistance Program payments, including:

           a. Processing and documenting home improvements and closing costs;

           b. Processing, paying, and documenting Government acquisitions;

                                            12

           c. Documenting supervisory reviews of eligibility decisions, payment
calculations, and the completeness of information in applicant folders; and

          d. Conducting and documenting post-payment reviews to ensure that all
information is included in the applicant folders and that payments are proper and
complete.

U.S. Army Corps of Engineers Comments
The Deputy Chief, Headquarters USACE Internal Review Office, responding on behalf
of the Director of Real Estate, agreed and stated that the Director would develop
guidance and standard procedures that further implement the final Code of Federal
Regulations provisions. USACE expected to issue standard procedures and guidance by
December 30, 2011.

        2. Direct district offices to review the incorrect and unsupported payments
identified during our audit and take corrective action.

U.S. Army Corps of Engineers Comments
The Deputy Chief, Headquarters USACE Internal Review Office, agreed and stated that
USACE Headquarters directed all three district offices to review payments identified in
the report and to take corrective actions for any payments found to be incorrect or
unsupported. The Deputy Chief also stated that the Savannah District reviewed and
corrected three payments. USACE expected to complete its review and take corrective
action by December 30, 2011.

        3. Periodically review the assessments made by district offices associated
with the quarterly management control checklist designed to assess compliance with
the Homeowners Assistance Program to ensure that management controls are
effectively reviewed.

U.S. Army Corps of Engineers Comments
The Deputy Chief, Headquarters USACE Internal Review Office, agreed and stated that
the Director would update the management control checklist and ensure that the district
offices understood the checklist and expectations for assessments. Once complete,
USACE Headquarters planned to periodically review the assessments made by each
district office. USACE expected to take corrective action by December 30, 2011.

Our Response
The USACE comments were responsive, and no further comments were required. We
encourage USACE to issue the standard procedures and guidance as soon as possible.




                                           13


Finding B. Classifying and Reporting
Ineligible Applicants
District personnel classified 680 11 of the 2,479 applicants as ineligible in HAPMIS as of
January 31, 2010, who may have been eligible to receive HAP benefits. USACE initially
denied some applicants from receiving HAP benefits because district personnel used
erroneous home valuation data to make decisions regarding the applicants’ eligibility
status and did not promptly request the additional information needed to reevaluate their
eligibility status once updated data became available. District personnel also incorrectly
denied benefits to applicants because of faulty assumptions or other miscalculations. As
a result, potentially eligible applicants were not considered for HAP benefits in a timely
manner, and DoD personnel did not have reliable HAPMIS information on eligible and
ineligible applicants.

Information on Ineligible Applicants
District personnel determined whether an applicant qualified for HAP benefits based on
information submitted by applicants and other information, such as home valuation data
obtained from a contractor-developed automated valuation model (AVM). They
classified applicants in HAPMIS as eligible, ineligible, or “other.” District personnel
used the “other” category when they needed additional information to determine
eligibility or ineligibility.

Based on the interim rule, USACE personnel established the following reasons for
ineligibility in HAPMIS:

     •		 home purchased after July 1, 2006;
     •		 home purchase price greater than Fannie Mae/Freddie Mac 12 loan limit;
     •		 less than 10 percent decline in the value of applicant’s home from date of 

         purchase to date of sale;


     •		 less than 10 percent decline in home value between July 1, 2006, and the date of
         application for the county/parish/city in which the home is located;
     •		 new members of the Armed Forces;
     •		 PCS orders dated before February 1, 2006; or
     •		 voluntarily retired or separated from the Armed Forces.

HAPMIS information as of January 31, 2010, indicated that district personnel had
classified 2,479 applicants as ineligible for HAP benefits. Most of those denied
eligibility were BRAC 2005 applicants and Service members reassigned under PCS
orders. District personnel denied eligibility primarily because the applicants had not
sustained at least a 10-percent decline in home value from the date of purchase to the date


11
  See Appendix C for details of statistical projections and interpretation.


12
  Fannie Mae is the common name for the Federal National Mortgage Association. Freddie Mac is the 

common name for the Federal Home Loan Mortgage Corporation.



                                                 14

of sale or there was a less than 10-percent decline in the value of homes located in their
county between July 1, 2006, and the date of application. 13 District personnel used the
AVM data to determine whether there was at least a 10-percent home value loss between
July 1, 2006, and the date of application for the county of the applicant’s residence.

Sample Selection
To determine whether district personnel properly denied applicants, we took a sample
from a universe of the 2,479 applicants that personnel from the Sacramento, Savannah,
and Fort Worth District Offices had classified as ineligible in HAPMIS as of January 31,
2010. See Appendix C for our statistical sampling methodology.

Problems in Determining the Eligibility Status
of Applicants
District personnel had problems correctly identifying eligible applicants and, as of
January 31, 2010, classified as ineligible 680 of the 2,479 applicants, who may have been
eligible to receive HAP benefits. District personnel used erroneous home valuation data
to make decisions regarding the applicants’ eligibility status and did not promptly request
the additional information needed to reevaluate eligibility status once updated data
became available. District personnel also incorrectly denied benefits to applicants
because of faulty assumptions or other miscalculations.

Use of Erroneous Home Valuation Information
District personnel initially denied some applicants from receiving HAP benefits because
district personnel used erroneous AVM data to make decisions regarding the applicants’
eligibility status and did not promptly request the additional information needed to
reevaluate the eligibility status of applicants once updated AVM data became available.
In deciding the eligibility of HAP applicants in October 2009, district personnel used
AVM data on home valuation that incorrectly portrayed home valuation declines in many
areas of the country. Many denied applicants questioned the information used to
determine the percentage of decline in the value of homes located in their counties since
July 1, 2006. As a result, USACE requested that the contractor update the AVM data
used to evaluate HAP applicant home values. USACE received updated AVM home
valuation data in November 2009.

In October 2009, district personnel used the AVM data available to determine the impact
of home value declines for eight sampled applicants classified as ineligible. Based on the
November 2009 AVM data, these applicants would have been eligible for benefits if the
updated and correct home valuation estimates had been available and used to determine
the impact of home value declines in the applicants’ counties of residence. After
receiving the updated AVM data, district personnel used the updated home valuation data


13
   Effective January 18, 2011, the final rule no longer required applicants to demonstrate at least a
10 percent decline in the value of homes located in their county between July 1, 2006, and the date of
application.


                                                    15

to process pending applications, but they took up to 5 months to reassess all previously
declined applicants to determine whether any were potentially eligible for benefits.

Other Inaccurate Eligibility Determinations
District personnel denied two additional sampled applicants for other reasons. District
personnel denied one applicant benefits because the applicant’s home had not sustained at
least a 10-percent decline in value since the date of purchase. However, district
personnel had originally not included the cost of the applicant’s home improvements to
compute the home’s PFMV. When the applicant provided additional documentation for
the cost of home improvements, the decline in value exceeded 10 percent and made the
applicant eligible for HAP benefits. This applicant was classified in HAPMIS as
ineligible at the time of our site visit; however, district personnel subsequently corrected
HAPMIS and paid the applicant benefits.

District personnel denied another applicant who changed his military status from active to
reserve duty because they erroneously classified the Service member as voluntarily
separated from military service. District personnel subsequently corrected HAPMIS and
paid the applicant benefits.

Lack of Prompt Corrective Actions
                                              Of the 52 denied applications reviewed, 10 had
  Because the district offices did not        potentially changed eligibility status. Between
     promptly notify and request              November 2009 and our site visits in March
   additional information needed to           and April 2010, district personnel had not
    confirm the eligibility status of         notified 4 of the 10 applicants that their
  previously denied applicants, some          eligibility status had changed, nor had they
   HAP applicants did not promptly            requested the additional information from
         receive HAP benefits.                applicants needed to confirm the applicants’
eligibility status. In June 2010, district personnel stated that they notified the four
incorrectly denied applicants of the change in their eligibility status and the need to
submit additional information to confirm eligibility. However, district personnel did not
place priority on processing these applications or identifying other applicants who may
have been incorrectly denied benefits. Because the district offices did not promptly
notify and request additional information needed to confirm the eligibility status of
previously denied applicants, some HAP applicants did not promptly receive HAP
benefits.

Impact of Inaccurate HAPMIS Information
DoD personnel who relied on HAPMIS reports did not have accurate information on the
number of eligible and ineligible applicants. USACE used HAPMIS information to
report pertinent information regarding the eligibility status of HAP applicants to DoD
officials responsible for Recovery Act reporting. District personnel needed accurate
information in HAPMIS on ineligible applicants to identify and contact denied applicants
affected by changes in the eligibility criteria resulting from the final rule. When DoD
issued the final rule on November 16, 2010, some of the eligibility requirements changed.
For example, the final rule removed the Fannie Mae/Freddie Mac conforming loan limit
                                             16

as an eligibility requirement and the requirement for the 10-percent decline in market
value in a county. (For additional information on the changes between the interim and
final rule, see Table B-3.) Based on information in HAPMIS as of October 2010,
518 ineligible applicants met one of these changed eligibility requirements.

USACE Headquarters did not require that district personnel review and confirm the
classification of applicant records categorized as ineligible in HAPMIS to ensure that
district personnel contacted all denied applicants affected by changes in the final rule.
USACE Headquarters personnel stated that they believed that affected personnel would
have previously appealed the decision or questioned district personnel regarding their
denied status.

Management Corrective Actions
District personnel provided sufficient evidence to support that they had taken corrective
action. In March 2011, personnel at the Sacramento, Fort Worth, and Savannah District
Offices provided documentary evidence indicating that they had reviewed the files of
ineligible applicants potentially affected by changes in the final rule and confirmed or
corrected classifications in HAPMIS. For those applicants considered as eligible for
benefits, district personnel either processed the applications or were in the process of
reviewing them. As a result, we are not making a recommendation.




                                            17


Finding C. Managing the Backlog of
HAP Applications
USACE had limited success in managing the backlog of eligible HAP applicants. As of
February 23, 2011, USACE had paid 4,825 applicants a total of $725.5 million, but had a
backlog of 4,897 eligible applications. This occurred because USACE Headquarters had
not developed a detailed plan for managing the backlog. In addition, the backlog of
unprocessed applications existed in part because of the USACE policy decision to limit
the Government acquisition of homes and require otherwise eligible applicants to find
buyers before providing financial assistance. As a result, DoD did not maximize its
ability to provide financial assistance to offset financial losses of qualifying Service
members and civilians adversely affected by a decline in real estate market values.

Backlog Developed While Districts Added Staff
When the President signed the Recovery Act in February 2009, only eight people in the
three USACE district offices processed traditional HAP payments. By October 2, 2009,
the district offices had already received 4,391 applications, but had hired only an
additional 29 employees. USACE district offices started making HAP payments in
October 2009 and continued through December 2010 to hire more employees to help
with the workload. As of February 23, 2011, USACE had 119 employees processing
HAP applications. However, by then, USACE district offices had received 12,917
applications for HAP benefits. District personnel had determined that 3,195 applicants
were not eligible for benefits, and they had paid 4,825 applicants benefits totaling $725.5
million.14 District personnel had determined that the remaining 4,897 applicants met the
basic eligibility criteria.

Personnel Processing Applications
During our site visits to the three district offices in March and April 2010, district
personnel stated that the employees processing HAP payments were inexperienced,
overworked, and not fully trained in how to process payments. District personnel stated
that most of the new hires were temporary or term-limited employees who were
unfamiliar with HAP and HAPMIS when they were hired. USACE used personnel with
previous experience processing traditional HAP payments to provide on-the-job training
to the new hires. USACE signed a contract with the HAPMIS contractor on April 17,
2009, which required the contractor to prepare and deliver HAPMIS training. However,
the HAPMIS contractor did not visit the district offices to train employees on how to use
HAPMIS until May 2010. During our site visits, district personnel were working
approximately 70 hours each week to try to minimize the backlog that had formed before



14
  In February 2011, USACE reported that it had obligated all of the $555 million authorized by the
Recovery Act and a portion of the $300 million authorized by the National Defense Authorization Act of
2010. USACE also had an additional $182 million available for HAP from funds returned on the sales of
Government acquisitions.

                                                  18

USD(AT&L) issued the interim rule. In December 2010, USACE Headquarters
personnel stated that since our site visits, district employees continued to routinely work
many extra hours each week, but typically less than 70 hours.

HAP Administrative Expenses
OMB limited USACE spending on administrative costs to about 8 percent ($45 million)
of the $555 million received for HAP from Recovery Act funds. USACE used available
funds to pay for administrative expenses, such as personnel costs, HAPMIS training,
information technology, and general office equipment and space. Limiting administrative
costs effectively capped the number of employees that USACE could hire to improve
application-processing times and reduce the backlog. Despite the long hours district
personnel worked to process HAP applications, they could not significantly reduce the
backlog of eligible applicants because of the inflow of new applications. For example,
from September 2010 through December 2010, district personnel processed about 100
payments each week, approximately the same number of applications they received
during the same period.

Eligible Applicants Await Payment
The 4,897 eligible applications were placed in three categories.

     •		 Awaiting Documents. These applicants needed to provide additional
         documentation supporting proof of eligibility or the PFMV of their home or the
         district offices’ Legal Department was waiting for documentation such as escrow
         and title information.

     •		 Eligible Awaiting Buyer. These applicants had met basic eligibility criteria.
         Even though the interim and final rules allowed the Government to purchase
         homes, USACE policy required applicants to find buyers to complete the sale of
         their homes and receive HAP benefits. 15

     •		 Benefits Actively Working. District personnel had all the required documentation
         to determine eligibility of these applicants and make payments, but it generally
         took from 60 to 120 days to pay an applicant.

The Figure displays the status of the 4,897 applications received for HAP benefits that
had not been denied or paid as of February 23, 2011.




15
   Generally, USACE policy required applicants, other than wounded warriors and surviving spouses, to
find a buyer for their home in order to complete a Government acquisition. Foreclosures also did not
require a homebuyer. See page 21 for additional details regarding the policy.

                                                  19

      Figure. USACE Analysis of Application Status as of February 23, 2011



                                                  Benefits
                                                   Actively
                                                  Working,
                              Awaiting           1,218, 25%
                             Documents,
                             2,030, 41%
                                                  Eligible
                                                 Awaiting
                                                  Buyer,
                                                1,649, 34%




Lack of a Detailed Plan for Managing Backlog
Although USACE had paid 4,825 applicants a total of $725.5 million, USACE had
limited success in managing the backlog of eligible HAP applicants that had grown to
4,897 applicants as of February 23, 2011.
This occurred because USACE                    USACE Headquarters had not developed
Headquarters had not developed a detailed      a detailed plan for managing the backlog
plan for managing the backlog that fully            that fully considered options for
considered options for processing                 processing applications quicker and
applications quicker and making benefit        making  benefit payments to more eligible
payments to more eligible applicants. The                       applicants.
Figure shows that USACE could influence
59 percent of the backlog by making improvements in application processing (25 percent)
and changing the its policy related to the Government acquisition of applicant homes
(34 percent).

USACE had established a goal for the number of days it took to process applications
(from 60 to 90 days for private sales and from 60 to 120 days for Government
acquisitions). However, USACE did not have a detailed plan for managing the backlog.
The plan should include a monthly forecast of the expected balance at the beginning of
each month, the number of new eligible applicants, and the expected number of
applications processed. If district personnel cannot reasonably meet goals for processing
applications and eliminating the backlog, then USACE should evaluate its options,
including adjusting workload to maximize staffing within OMB limits on administrative
costs and hiring additional staff. If USACE decides that it cannot reduce the backlog and



                                           20
application processing times to acceptable levels within reasonable time frames with
available staff, USACE should request more funds from DoD or request relief from the
OMB-imposed limit on administrative costs, if appropriate.

Other decisions could also affect program costs and extend processing applications. For
example, USD(AT&L) could allow Service members who have PCS orders dated after
September 30, 2010, to be eligible for HAP benefits. The interim and final rules state
that permanently reassigned members of the Armed Forces who are reassigned under
permanent PCS orders dated between February 1, 2006, and September 30, 2012 (subject
to the availability of funds) were eligible for HAP benefits. In addition, H.R. 237, which
was introduced in January 2011 by the 112th Congress, 1st session (2011), and as of
June 2011 was awaiting a committee hearing, could further expand the number of Service
members and civilians eligible for HAP benefits. The bill would give the Secretary of
Defense flexibility regarding setting the commencement date for homeowner assistance
for members of the Armed Forces who are permanently reassigned.

USACE Required Applicants to Find Own Buyers
The backlog of unprocessed applications existed in part because of the USACE policy
decision to limit the Government acquisition of homes and require otherwise eligible
applicants to find buyers before providing financial assistance. The interim and final
rules state that the Government may purchase the applicant’s primary residence if the
applicant is unable to sell the residence after demonstrating reasonable efforts to sell. 16
However, USACE policy for Government acquisitions generally requires applicants to
find buyers to complete the sale of their homes.

USACE Headquarters personnel stated that they wanted to significantly limit the number
of homes they purchased and took into inventory because of the additional costs to the
HAP. They estimated that it would cost from $26,000 to $29,000 for USACE to repair,
manage, and resell a home it purchased. They also stated that they were concerned about
the overall funding for HAP and believed that purchasing homes from sellers would use a
significant amount of available funding for the program and put at risk the benefit
payments for other applicants. As a result, USACE generally required HAP applicants to
find buyers for their homes before it agreed to provide financial assistance. Once the
applicant identified a buyer, USACE arranged to buy the home from the applicant and
then sold the home to the buyer.

According to the USACE personnel, Government acquisitions normally took longer to
complete because of the complexities involved with processing applications. The


16
   The final rule defines a reasonable effort to sell. It states that the applicant’s primary residence must be
listed, actively marketed, and available for purchase for a minimum of 120 days. With regard to marketing,
the applicant must demonstrate that the asking price was within the current market value of the home as
determined by the AVM for no less than 30 days. It is the applicant’s responsibility to explain marketing
efforts by detailing how the asking price was gradually reduced until it reached the true current fair market
value. If an applicant is unable to sell the primary residence, USACE would determine whether efforts to
sell were reasonable.

                                                      21

documentation required for a Government acquisition was much more detailed than the
documentation for a private sale, and district personnel used a third party to obtain all the
required legal information. Unfortunately, eligible applicants often found it difficult to
find buyers for their homes. As of February 23, 2011, 1,649 out of 4,897 eligible
applicants had met basic eligibility criteria but needed to locate buyers to complete the
sale of their homes.

The USACE policy limited the authority in the final rule for the Government to purchase
homes. The policy delayed otherwise qualified applicants from receiving financial
assistance to offset financial losses from the mortgage crisis, as intended by the Recovery
Act. This policy placed an undue burden on otherwise eligible applicants affected by the
mortgage crisis, and it has contributed to the large backlog in applications for eligible
applicants. It has also been a frequent complaint of applicants. 17

Independent Review of Spending Plan for HAP
In September 2010, the Deputy Assistant Secretary of the Army for Installations,
Housing, and Partnerships contracted for an independent review of the spending plan for
HAP and the reasonableness of the plan assumptions. In addition, the contractor was
required to conduct a sensitivity analysis of projected outcomes and determine the
adequacy and reliability of planned HAP expenditures for future years, identifying budget
shortfalls, errors, and risks. The contractor was also required to determine the
reasonableness of HAP assumptions, such as average claim payments, projected number
of claimants, how far current budgeted HAP funds would last, or how much (if any)
additional funding would be needed. Additionally, the contractor was required to
perform a sensitivity analysis of alternative outcomes and model other scenarios, such as
different spending timelines, changes to the average claim payments, or changes to the
number of applicants.

As part of its plan for managing the backlog, USACE should consider expanding the use
of the authority allowed in the final rule to purchase homes more quickly from eligible
applicants who have made a reasonable effort to sell their home. Changing the policy
may have significant program cost implications. USACE should determine the economic
impact of expanding the Government acquisition of homes from qualified applicants who
have not identified a buyer for their home. After assessing the economic impact, USACE
should consider changing its policy.

Conclusion
As of February 23, 2011, district personnel had paid 4,825 applicants HAP benefits
totaling about $725.5 million. However, a backlog of 4,897 applications existed. From



17
  USACE Headquarters personnel provided us information indicating that of the 241 congressional
inquiries that they had received related to HAP as of February 9, 2011, about 26 percent were related to the
length of time to process cases; 20 percent related to the requirement to have purchased the home before
July 1, 2006; and the remaining 54 percent related to other issues, some which were no longer relevant
because of changes made in the final rule.

                                                    22

February 17, 2009, when the President signed the Recovery Act, to September 30, 2009,
when USD(AT&L) issued the interim rule, USACE district offices received more than
4,000 applications for HAP benefits. As of February 23, 2011, USACE district offices
had received 12,917 applications. USACE had limited success in managing the backlog
of eligible HAP applicants. From September through December 2010, district personnel
processed about 100 payments per week, approximately the same number of applications
they received. USACE had not developed a detailed plan for managing the backlog that
considered options for processing applications and making benefit payments more
quickly. In addition, the USACE policy decision to limit the Government acquisition of
homes and require otherwise eligible applicants to find buyers before providing financial
assistance added to the backlog of unprocessed applications and limited the overall
success of HAP. As a result, DoD had not maximized its ability to provide financial
assistance through HAP to offset financial losses of qualifying Service members and
civilians who needed to sell their homes. 18

USACE should establish a detailed plan for managing the backlog. The plan should
identify goals for processing applications and eliminating the backlog that consider a
forecast of the expected balance of unprocessed applications at the beginning of each
month, the number of new eligible applicants, and the expected number of applicants that
will be processed monthly. Further, USACE should determine the economic impact of
changing the current policy that limits the Government acquisition of homes for
qualifying Service members and civilians who need to sell their homes in conjunction
with PCS moves and base closures.

Recommendations, Management Comments, and
Our Response
C. We recommend that the Director of Real Estate, U.S. Army Corps of Engineers:

       1. Develop a detailed plan for managing the backlog that includes monthly
goals for processing the applications of eligible applicants and eliminating the
backlog of unprocessed applications. The goals should consider a forecast of
carryover workload, new applicants, and processed applications.

U.S. Army Corps of Engineers Comments
The Deputy Chief, Headquarters USACE Internal Review Office, responding on behalf
of the Director of Real Estate, neither agreed nor disagreed, but stated that the Director
tracked the processing of applications and the volume of new applications received on a
weekly basis. The Deputy Chief stated that the backlog at the time of our audit was the
result of the number of applications that were received before USACE personnel had the




18
  Although we used the interim rule as the basis for this finding, more applicants will be eligible for HAP
benefits under the final rule. This could further add to the backlog of applicants and increase waiting times
for receiving HAP benefits. See Table B-3 for differences between the interim and final rule.

                                                     23

authority to process benefits, and as of October 6, 2011, there was no backlog. She also
stated that applications of all eligible applicants had either been processed and paid or
were in the queue for payment, or applicants were waiting for buyers.

Our Response
The USACE comments were not responsive. USACE had not developed a detailed plan
for managing the backlog that included monthly goals for processing the applications of
eligible applicants and eliminating the backlog. The goals were to have considered a
forecast of carryover workload, new applicants, and processed applications.

The Deputy Chief stated that there was no backlog, but data as of September 21, 2011,
showed that applications for 3,897 applicants had not been fully processed and paid.
There were 1,721 applicants looking for a buyer for their homes, and 1,340 applicants
who needed to provide additional documentation in order for district personnel to assess
eligibility or to process payments. An additional 836 payments were in the process of
being paid. However, USACE did not indicate how long applicants remained in these
categories. It is possible that some eligible applicants have been in these categories for
extended periods of time. Further the number of applicants still waiting for a buyer for
their homes had increased by 4.4 percent since February 23, 2011. We consider this a
significant and growing backlog, even if the numbers in the other applicant categories
have decreased over this same period. In addition, HAP funding may not be available for
many of the backlogged applicants. We request that USACE reconsider its position on
the recommendation and provide comments on the final report that address program
funding concerns in the context of developing a detailed plan for managing the backlog
of applications that have not been fully processed and paid as well as new applications.

       2. Determine the economic impact of expanding the use of Government
acquisitions of homes from qualified applicants who have not identified a buyer for
their home. Consider changing the policy after assessing the economic impact.

U.S. Army Corps of Engineers Comments
The Deputy Chief, Headquarters USACE Internal Review Office, neither agreed nor
disagreed, but stated that the acquisition of residential properties involves fiscal and
programmatic risks for HAP that do not arise if the applicant is able to find a buyer for
the home. USACE personnel estimated that requiring the acquisition, management, and
disposal of Government-acquired homes would cost approximately an additional
$45.9 million from September 2011 through September 2012. The Deputy Chief stated
that a consequence of changing the policy would be a dramatic reduction in the number
of eligible applicants who could receive benefits. In addition, appropriations for HAP
may not be sufficient to manage a large portfolio of Government-acquired homes.
USACE considered the existing policy to be consistent with the major intent of HAP,
which is to get the most benefits to the most eligible applicants. USACE believed that
the existing policy was in the best interest of eligible applicants.




                                            24


Our Response
The USACE comments were responsive, and the actions met the intent of the
recommendation.




                                         25


Appendix A. Audit Scope and Methodology
This is one in a series of reports on the Recovery Act. We conducted this performance
audit from February 2010 through September 2011 in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We reviewed the American Recovery and Reinvestment Act of 2009, OMB
Memorandum M-09-10, “Initial Implementing Guidance for the American Recovery and
Reinvestment Act of 2009,” February 18, 2009, and subsequent related guidance. We
also reviewed the interim rule published in the Federal Register and implementing
guidance issued by USACE. We interviewed personnel at USACE Headquarters and the
USACE Fort Worth, Sacramento, and Savannah District Offices.

To determine whether HAP payments were properly made, we randomly selected
64 payments marked as paid in HAPMIS as of January 31, 2010, and used the interim
rule and implementing guidance to determine whether applicants were eligible and paid
correctly. To determine whether USACE personnel made proper determinations
regarding the eligibility status of denied applicants, we reviewed eligibility information in
HAPMIS as of January 31, 2010, for 52 applicants that we randomly selected. During
site visits to the three district offices in March and April 2010, we reviewed HAP claims
and payments processed by USACE district offices as of January 31, 2010. We obtained
information through our site visits and data requests to determine the policies,
procedures, and practices followed for processing and making HAP payments. We based
our projections on our sample of 64 payments marked as paid in HAPMIS and
52 ineligible applications as of January 31, 2010. See Appendix C for statistical
sampling information.

On November 16, 2010, DoD issued the final rule. The effective date for the guidance
was January 18, 2011. As a result, we did not use this guidance for our review of
payments; however, we assessed major differences between the interim and final rules.

We also obtained information from USACE Headquarters personnel on the status of
claims and benefits at various dates from October 2009 through February 2011 and
analyzed the progress made and actions taken to manage the backlog of applications
received by the district offices.

Use of Computer-Processed Data
We used computer-processed data from HAPMIS to perform this audit. We used the data
to statistically select two samples. For the sampled applicants, we determined whether
the eligibility status recorded in HAPMIS was accurate as of January 31, 2010. For the
sampled payments, we determined whether the district personnel computed the payments
accurately in accordance with the interim rule. We assessed the reliability of the data by
                                             26

tracing the data to source documentation. Specifically, we compared the information in
the files maintained at the three USACE district offices with the eligibility status and
payment information recorded in HAPMIS. We also obtained and reviewed HAPMIS
information after January 31, 2010, for comparison with the information that we obtained
on the sampled applicants. Although we identified some issues with the accuracy of the
HAPMIS information, we believe the computer-processed data we used were sufficiently
reliable to support the findings and conclusions in this report.

Use of Technical Assistance
We obtained assistance in developing the statistical sampling plan and analyzing the
results from the DoD Office of Inspector General, Office of Auditing, Quantitative
Methods Division. The Quantitative Methods Division provided the sample of HAP
benefit payments paid to the applicants as of January 31, 2010, and the sample of denied
applicants to determine the accuracy of their ineligibility status. See Appendix C for
statistical sampling information.

Prior Coverage of the Recovery Act
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                           27


Appendix B. Targeted Recipients, Eligibility
Requirements, and Benefits
Eligible homeowners are the targeted recipients of HAP. The interim rule identified the
following general categories in which these individuals must belong.
    •		 Wounded, Injured, or Ill (Wounded Warriors)
              Wounded Warriors are members of the Armed Forces who:
                  o Meet one of the following three conditions –
                          •		 Receive a disability rating of 30 percent or more for an
                               unfitting condition (using the Department of Veterans
                               Affairs Schedule for Ratings Disabilities), or
                          •		 Are eligible for Service member’s Group Life Insurance
                               Traumatic Injury Protection Program, or
                          •		 Whose treating physician (in a grade of a least captain in
                               the Navy or Coast Guard or colonel in Army or Air Force)
                               certifies that the member is likely, by a preponderance of
                               the evidence, to receive a disability rating of 30 percent or
                               more for an unfitting condition (using the Department of
                               Veterans Affairs Schedule for Ratings Disabilities) for
                               wounds, injuries, or illness incurred in the line of duty
                               while deployed, on or after September 11, 2001;
                  o		 Are reassigned in furtherance of medical treatment or
                      rehabilitation, or who retire in connection with such disability; and
                  o		 Need to sell their primary residence due to the wound, injury, or
                      illness.

               Civilian employees of DoD or the United States Coast Guard (excluding
               temporary employees or contractors, but including employees of
               nonappropriated fund instrumentalities) who:
                  o		 Suffer a wound, injury, or illness (not due to own misconduct), on
                       or after September 11, 2001, in the performance of duties while
                       forward deployed in support of the Armed Forces, whose treating
                       physician provides written documentation that the member, by a
                       preponderance of the evidence, meets the criteria for a disability
                       rating of 30 percent or more;
                  o		 Relocate from their primary residence in furtherance of medical
                       treatment, rehabilitation, or due to medical retirement resulting
                       from the wound, injury, or illness; and
                  o		 Need to sell their primary residence due to the wound, injury, or
                       illness.



                                             28

                 Wounded warriors are eligible for compensation no matter when they
                 purchased their homes and without an end date for their eligibility for
                 compensation.

    •		 Surviving Spouses
               The surviving spouse of Service members or civilian employees is eligible
               if:
                   o		 Service member or civilian employee died as the result of a wound,
                       injury, or illness incurred in the line of duty while deployed (or
                       forward deployed for civilian employees) on or after
                       September 11, 2001; and
                   o		 Applicant relocated from the member’s or civilian employee’s
                       primary residence within 2 years of the death of the spouse.
               Surviving spouses are also eligible for compensation without respect to
               date of home purchase or end of eligibility date.

    •		 Members of the Armed Forces and Civilian Employees Affected by Base
        Realignment and Closure (BRAC) 2005
              Members of the Armed Forces, civilian employees of DoD and the United
              States Coast Guard (not including temporary employees or contractors),
              and employees of nonappropriated fund instrumentalities assigned as of
              May 13, 2005, to an installation or unit identified for closure or
              realignment under the calendar year 2005 round of BRAC are eligible if:
                  o		 Their positions are eliminated or transferred because of the
                      realignment or closure;
                  o		 They accept employment or are required to relocate because of a
                      transfer beyond the normal commuting distance from the primary
                      residence (50 miles); and
                  o		 They purchased their primary residence before the date of the
                      BRAC 2005 announcement (May 13, 2005).

    •		 Permanently Reassigned Members of the Armed Forces
             Members who are reassigned under permanent change of station (PCS)
             orders are eligible if they:
                o		 Received qualifying orders to relocate dated between February 1,
                     2006, and September 30, 2010; ∗
                o		 Moved to a new duty station or home port outside a 50-mile radius
                     of the member’s former duty station or home port; and
                o		 Purchased their primary residence before July 1, 2006.


∗
 The date may be extended to September 30, 2012, at the discretion of the Deputy Under Secretary of
Defense for Installations and Environment based on availability of funds.

                                                  29

       Targeted recipients qualify for HAP benefits if they meet certain eligibility requirements.
       In addition to the requirements related to date of eligibility and timing of home purchase
       referred to in the descriptions of the targeted recipients, the interim rule defines eligibility
       requirements related to economic impact and home purchase price. Table B-1 identifies
       the specific requirements for each targeted recipient category as defined in the interim
       rule.

                            Table B-1. Recipient Eligibility Requirements

                                                Targeted Recipients

Requirement      Wounded Warriors           BRAC 2005                  Permanently Reassigned
                  and Surviving                                        Members of the Armed
                     Spouses                                                  Forces

                Eligible for                1. County/city/parish has suffered at least a 10-percent
                compensation without        loss in market value between July 1, 2006, and date of
 Economic       respect to economic         HAP application.
  Impact        impact, or timing of
                purchase.                   2. Decline of at least a 10-percent personal home
                                            value loss from the date of purchase to date of sale.

                Eligible for                Purchased primary       Purchased primary residence
                compensation without        residence before        before July 1, 2006.
                respect to date of          May 13, 2005.
 Timing of
                purchase. Surviving
 Purchase
                spouses must move
                within 2 years of the
                death of a spouse.

 Maximum        The Prior Fair Market Value (PFMV) may not exceed an amount equal to the
  Home          2009 Fannie Mae/Freddie Mac conforming loan limits (as amended by the
 Purchase       Recovery Act). These conforming loan limits are established for each
  Price         county/city/parish, and range from $417,000 to $729,500.

                Wound, injury, illness,     Assigned to an          Received qualifying orders to
                or death of a spouse        installation or unit    relocate dated between
                must have occurred on       identified for          February 1, 2006, and
  Date of
                or after September 11,      closure or              September 30, 2010. The
 Eligibility
                2001.                       realignment on          orders must specify a report no
                                            May 13, 2005,           later than a date on or before
                                            under BRAC 2005.        February 28, 2010.




                                                     30


     Table B-2 summarizes the benefits defined in the interim rule for each targeted recipient
     category.

                                          Table B-2. Benefits Guide
                        BRAC 2005           Permanently            Wounded              Surviving
      Type of                                Reassigned             Warrior              Spouses
      Benefits                            Members of the
                                           Armed Forces
                      Greater of 90 percent PFMV, minus       Greater of 95 percent PFMV, minus
                         sales price, plus closing costs          sales price, plus closing costs,
    Private Sale1                       or                                       or
                      Mortgage payoff, minus sales price,     Mortgage payoff, minus sales price,
                               plus closing costs.                       plus closing costs.
                      Greater of:75 percent of the PFMV            Greater of 95 percent PFMV
    Government                          or                                       or
    Acquisition2      Mortgage payoff, minus sales price,     Mortgage payoff, minus sales price,
                               plus closing costs.                       plus closing costs.
    Foreclosure3                              Legally enforceable liabilities.
1
  This benefit applies to applicants who have sold their property in an independent manner.


2
  This benefit is an option if the applicant’s loan is greater than the contract home sales price plus other eligible


Expanded HAP benefits. Typically, DoD will pay off the balance of the original loan(s), purchase the property,


and resell it.


3
  Foreclosure is a legal proceeding that bars or extinguishes a mortgagor’s equity of redemption in mortgaged


real property.



     On November 16, 2010, DoD issued the final rule. This guidance became effective on
     January 18, 2011. As a result, we did not use this guidance for our review of payments;
     however, we assessed major differences between interim and the final rules.

     Table B-3 identifies the major differences and impact of the differences between the 

     interim and final rules.






                                                           31


              Table B-3. Differences Between Interim Rule and Final Rule
Interim Rule                       Final Rule                              Impact
Interim rule did not define all    Final rule includes definitions for     Clarifies the terms for
terminology used in the            closing costs, eligible mortgage,       applicants.
interim rule.                      prior fair market value (PFMV),
                                   and purchase.
If an applicant is eligible as a   If an applicant is eligible as a        Reduces benefits for the
wounded warrior or surviving       wounded warrior or surviving            applicants who are
spouse and is unable to sell       spouse and is unable to sell the        unable to sell primary
the primary residence after        primary residence after                 residence.
demonstrating reasonable           demonstrating reasonable efforts to
efforts to sell, the applicable    sell, the applicable percentage will
percentage will be 95 percent      be 90 percent of the PFMV.
of the PFMV.
The amount of a short-sale         If the applicant was fully released     Clarifies that applicants
deficiency may be included in      from liability after a short sale, no   who are fully released
the benefit if the total amount    benefit will be paid to either the      from a liability after a
of the benefit does not exceed     applicant or lender. If an applicant    short sale do not receive
the difference between             remains liable for a deficiency         a benefit.
95 percent of the PFMV and         between the outstanding mortgage
the sales price.                   and the sales price, the deficiency
                                   amount may be included in the
                                   benefit if the total amount of the
                                   benefit does not exceed the
                                   difference between 90 percent of
                                   the PFMV and the sales price.
Interim rule required a 10­        The requirement to show a 10­           More applicants would
percent decline in the             percent decline in county/parish/       be eligible.
county/parish/market for           city market value was removed.
eligibility.
The PFMV of a house may            The requirement for the PFMV or         More applicants would
not exceed an amount equal         qualifying mortgage to be within        be eligible.
to the Fannie Mae/Freddie          the Fannie Mae/Freddie Mac
Mac conforming loan limits         conforming loan limit for eligibility
for 2009 for each city/county/     purposes was removed, but final
parish, as appropriate.            rule placed a cap on benefit
                                   payments of $729,750.
End date of eligibility for        The end date for PCS Service            More applicants would
PCS Service members was            members was extended to                 be eligible.
December 31, 2009. This            September 30, 2010. This date may
date may be extended to            be extended to September 30, 2012,
September 30, 2012, at the         at the discretion of the Deputy
discretion of the Deputy           Under Secretary of Defense for
Under Secretary of Defense         Installations and Environment.
for Installations and
Environment.



                                                 32


Appendix C. Statistical Sampling
Methodology
HAPMIS information from USACE Headquarters personnel indicated that 605 payments,
totaling $53,770,543.91, had been made as of January 31, 2010. HAPMIS information
also showed that 6,655 applicants had applied for HAP benefits as of January 31, 2010,
of which 4,176 applicants were eligible and 2,020 of the applicants were ineligible for
HAP benefits. The remaining 459 applicants were in the “other” category. District
personnel used the “other” category when they needed additional information to
determine eligibility or ineligibility.

Sampling Plan
Propriety of Payments Made
To determine whether USACE district personnel properly made HAP payments, we
randomly selected 64 of 605 payments marked as paid in HAPMIS as of January 31,
2010. We used the interim rule and implementing guidance to determine whether
applicants were eligible and paid correctly. The purpose of the statistical sampling plan
was to estimate the number and dollar value of HAP payments not correctly paid in
accordance with the interim rule and USACE implementing guidance and determine
whether they were adequately supported.

Classifying and Reporting Ineligible Applicants
To determine whether USACE personnel made proper determinations regarding the
eligibility status of denied applicants, we reviewed eligibility information in HAPMIS as
of January 31, 2010. HAPMIS indicated that of the 6,655 applicants who had applied for
benefits under HAP, 4,176 applicants were eligible and 2,020 applicants were ineligible.
USACE district personnel had not determined the eligibility of the remaining
459 applicants. We selected a random sample of 52 out of 2,479 (2,020+459) applicants.
Table C-1 breaks down the sample information by district offices.

                  Table C-1. Random Sample for Eligibility Status
             District Office   Universe Size       Sample Size
            Fort Worth              552                  14
            Savannah              1,654                  19
            Sacramento              273                  19
              Total               2,479                  52

Statistical Projections and Interpretation
Based on the sample results provided, we calculated the appropriate statistical projections
by using a 90-percent confidence level.



                                            33
Incorrect Payment Amount
We have presented the actual sample results of underpayments to three applicants, which
totaled $9,562.75, and overpayments to five applicants, which totaled $1,308.01. We are
not presenting the statistical projection to the universe of $53.8 million because the
calculated upper and lower bounds are too wide to make a defensible statistical
conclusion.

Unsupported Amount
We have presented the actual sample results of unsupported payments of seven
payments totaling $28,558.03. We are not presenting the statistical projection to the
universe of $53.8 million because of discrepancies found in the population
distribution of district offices by dollar values.

Denied Claims
           Table C-2. Statistical Projections for Falsely Denied Applicants
                                (90% Confidence Level)
                      Lower                   Point               Upper
                      Bound                 Estimate              Bound
 Rate                    11.47%                   27.43%               43.39%

 Number                  284                      680                 1,076

We are 90-percent confident that the error rate for falsely denied applicants is
between 11.47 percent and 43.39 percent, and the number of errors is between 284
and 1,076.




                                            34

Appendix D. Incorrect and Unsupported
Payments
Of the 64 randomly selected payments marked as paid in HAPMIS as of January 31,
2010, we determined that 49 payments were properly computed in accordance with the
interim rule and implementing USACE guidance. However, we identified eight incorrect
payments. There were five overpayments, totaling $1,308.01, and three underpayments,
totaling $9,562.75. In addition, we identified seven other payments that did not have
proper supporting documentation for $28,558.03 in benefits paid. Table D-1 identifies
the incorrect payments we identified using the criteria in Appendix B.

                           Table D-1. Incorrect Payments

       District         Applicant           Overpayment         (Underpayment)
       Office            Number
     Fort Worth     2M28NE681130026               $220.77
     Sacramento     3L28NV894060005                                  $(45.00)
     Sacramento     3L28WA983150012                27.40
      Savannah      1K68DC203192710                                 (8,440.00)
      Savannah      3K68FL322281705               810.00
      Savannah      3K68MD208892758                                 (1,077.75)
      Savannah       7K68NJ084050858               59.35
      Savannah      2K68VA222022255               190.49
        Total                                  $1,308.01            $(9,562.75)

   •		 Application Number 2M28NE681130026. Fort Worth District personnel
       overpaid the applicant for home improvements. The vendor invoice indicated that
       the applicant was given a military discount of $245.30 when he purchased the
       materials for the home improvement. Fort Worth District Office personnel failed
       to realize this and mistakenly reimbursed the applicant $220.77 (90 percent of the
       $245.30 claimed as a home improvement).

   •		 Application Number 3L28NV894060005. Sacramento District personnel
       underpaid the applicant when they incorrectly entered the PFMV of the
       applicant’s home in HAPMIS. Instead of entering $230,883.50 in HAPMIS, they
       entered $230,833.50, a $50 understatement. The $45 underpayment was
       90 percent of the $50 understatement of the home PFMV.

   •		 Application Number 3L28WA983150012. Sacramento District personnel
       overpaid the applicant when they incorrectly included in the benefit calculation
       the cost of a home improvement item that had been returned to the store.



                                           35
	
•		 Application Number 1K68DC203192710. The applicant appealed the HAP
    payment made by the Savannah District Office. The applicant claimed that some
    of the customary closing costs in his area were not paid. The appeal was for
    $8,000, but Savannah District personnel identified an additional $440 that was not
    initially paid to the applicant. Savannah District personnel paid the applicant the
    additional $8,440 to which he was entitled.

•		 Application Number 3K68FL322281705. The Savannah District Office overpaid
    the applicant for closing costs. When Savannah District personnel examined the
    final U.S. Department of Housing and Urban Development Settlement Statement,
    they decided that some of the costs that they initially paid were not customary for
    the applicant’s residential area. Savannah District personnel determined that the
    documentation preparation fee, clerk of the circuit court fee, and the survey fee
    were not customary closing costs and should not have been reimbursed. They
    also determined that the title search fee and title insurance were overpaid by a
    total of $115. Due to these overpayments, Savannah District personnel requested
    a reimbursement from the applicant for the $810 that was overpaid.

•		 Application Number 3K68MD208892758. As part of the submission package,
    the applicant provided a receipt for $1,197.50 in flooring that she installed in her
    house. However, Savannah District personnel did not include the amount of the
    flooring as part of the applicant’s home improvement costs, subject to 90-percent
    reimbursement, underpaying the applicant by $1,077.75. Savannah District
    personnel could not tell us why the cost of the flooring was not included as a
    reimbursable home improvement cost. We were told that the Savannah District’s
    appraisal department was going to review the matter.

•		 Application Number 7K68NJ084050858. The applicant claimed the cost of a
    refrigerator as a home improvement. In accordance with its guidance, Savannah
    District personnel appropriately excluded the cost of the refrigerator as a qualified
    home improvement. However, Savannah District personnel did not exclude the
    associated sales tax and overpaid the applicant $59.35.

•		 Application Number 2K68VA222022255. The applicant provided a receipt with
    the items that were purchased for home improvements. In computing the
    reimbursable amount, Savannah District personnel inappropriately used the
    number of items that were purchased rather than the amount that was paid. There
    were 2,536 items bought for $2,324.55. Because of this error, Savannah District
    personnel overpaid the applicant by $190.49.




                                         36


Table D-2 provides additional information on the unsupported portion of seven other
payments. In total, supporting documentation was not available to support $28,558.03 of
the $12,263,383.15 paid.

                          Table D-2. Unsupported Payments

District Office         Application Number                   Unsupported Amount

  Fort Worth             2M28CO800110020                            $4,245.50

  Fort Worth             2M28CO809140005                             2,822.37

  Fort Worth            1M28MN551110017                              4,251.17

  Fort Worth             2M26TX763110003                               423.54

  Fort Worth             2M28WI546180001                             7,872.07

  Fort Worth             3M28WI600880008                             6,834.47

  Sacramento             1L24HI968590001                             2,108.91

     Total                                                         $28,558.03

       For each of the six Fort Worth District Office applicants, district personnel did not
       provide adequate documentation to support the amount paid for closing costs.
       The applicant folders did not contain supporting documentation that matched the
       amounts paid. In addition, the calculation sheets from HAPMIS in the applicant
       folders did not match the payment checks, and the dollar value of the closing
       costs on the settlement sheet differed from the amount reimbursed. For the one
       Sacramento District Office applicant, the applicant’s folder did not contain
       supporting documentation that matched the amount paid for closing costs.




                                            37


U.S. Army Corps of Engineers Comments
 





                                    DEPARTMENT OF THE ARMY
                                      u.s. ARMY CORPS OF ENGINEERS
                                       WASHINGTON, D.C. 20314-1000




        CElR                                                              06 October 201 1

        MEMORANDUM FOR Department of Defense Inspector General, Acquisition and
        Contract Management, 400 Anny Navy Drive, Arlington, VA

        SUBJECT: OIG Draft Report American Recovery and Reinvestment Act~lmprovements
        Needed in Implementing the Homeowners Assistance Program (Project No. 02010-
        DOOOFl-01 59.000)


        I. DODIG requested USACE comments to the eight recommendations addressed in the
        subject report.

        2. HQS U.S. Anny Corps of Engineers concurs and submits the attacbed response. The
        responses have been reviewed and approved by the USACE Director of Real Estate, the
        DASA (lH&P) and the ODUSD (I&E).

                                                                          the undersigned at




                                                 1/                  "    7
                                            -..: L } (y/ ,v;!..t;L (I~..Ll..--
                                               {.:. BRENDA L. MAYES I         :1
                                                    Deputy Chief,           .
                                                    HQs USACE Internal Review Office




                                                               38
          U.S. Army Corps of Engineers (USACE) Comments and Respon se to the
                                   Recommendations

             Department of Defense Offiee of Inspector General (DOD IG)
                                    Draft Report
                         Project No. D2010·DOOFI·0159.000
 "American Recovery and Reinvestment Act - Improvements Needed in [mplementing the
                         Homeowners Assistance Program"


RECOMMENDATION A.I (.-<1): The USACE Director of Real Estate issue detailed standard
procedures and guidance for the uni form processing of Homeowners Assistance Program (HAP)
applications and payments, specificall y regarding:

       a. Processing and documenting home improvements and closing costs;

       b. Processing. paying, and documenting Government acquisitions;

       c. Documenting supervisory reviews of eligibility decisions. payment calculations. and
       the completeness of information in applicant folders;

       d. Conducting and documenting post·payment reviews to ensure that all information is
       included in the applicant folders and that payments are proper and complete.

USACE RESPONSE: Concur.

The draft report notes that the three USACE Districts processing HAP appl ications use a variety
of different processes for processing, paying, and documenting HAP transactions with varying
degrees of success. In an effort to make USACE' s administration of the HAP as consistent as
possible, the Director of Real Estate will develop guidance and standard procedures that further
implement the final Code of Federal Regulations provisions. That guidance will draw from the
most successful methods employed by the Di stricts. The guidance and procedures will address
the processes and payments specifi ed above. The guidance will also ensure that benefit
determinations are properly and consistently documented and that a complete record of the
detennination is maintained. USACE expects to issue standard procedures and guidance by the
end of the calendar year. It should be noted that when the audit was conducted, USACE was
operating under an interim rule. As the final rule was publ ished and effective in January 20 11 ,
USACE will finalize standard procedures and guidance by the end of the calendar year (30 Dec
2011).


RECOMM ENDATION A.2: The USACE Director of Real Estate direct the appropriate
District offices to review the incorrect and unsupported payments identified during its audit and
take corrective action.

USACE RESPONSE: Concur with comment.




                                                            39
HQUSACE directed all three HAP Centers of Expertise to review payments identified in the
DOD 10 report and to take corrective actions for any payments found to be incorrect or
unsupported. The Savannah District has already reviewed and corrected three payments noted in
the draft report and will correct the remaining two payments by October 30, 2011. Any
overpayments will be resolved under the 000 Financial Management Regulation collection
procedures. USACE expects to complete its review and take corrective action by the end of the
calendar year (30 Dec 2011). It should be noted that the dollar amounts identified as incorrect
and/or unsupported represented only .25% of the dollar amount reviewed and that 99.75% of the
funds were distributed correctly.


RECOMMENDATION A.3: The DoD 10 recommended that the USACE Director of Real
Estate periodica11y review the assessments made by District offices associated with the quarterly
management control checklist designed to assess compliance with the HAP program to ensure
that management controls are effecti vely reviewed.

USACE RESPONSE: Concur.

The Director of Real Estate will update the current quarterly management control checklist;
ensure the Di stricts administering the HAP program understand the checklist, and the
HQUSACE expectations for those assessments. Once complete, HQUSACE will periodically
review the assessments made by each District office. USACE expects to complete its review and
take corrective action by the end of the calendar year (30 Dec 20 II).


RECOMMENDATION C.I: The USACE Director of Real Estate develop a detailed plan for
managing the backlog that includes monthly goals for processing the applications of eligible
applicants and eliminating the backlog of unprocessed applications. The goals should consider a
forecast of carryover workload, new appl icants, and processed applications.

USACE RESPONSE: Complete.

The Director of Real Estate tracks the processing of applications and the volume of new
applications received on a weekly basis. The backlog at the time of the inspection was the result
of the number of applicat ions that had been received prior to having the authority to process for
benefits. When those applications were received, USACE did not yet have the authority or fund s
in place to execute; thereby, the Districts could not process any applications which resulted in a
backlog. However, since the inspection was conducted all three HAP Districts have been fully
staffed and are functioning under a Rapid Improvement Process that was established in April
2010. Currently, there is no backlog. All eligible applicants have either been processed and
benefits paid, are in the queue for payment, or are waiting for buyers. As of2 1 September 2011
the following data applies:




                                                           40
Applications Received                 15, 190
Eligible Applications                 10,752
Ineligible Applicants                   4,438
Applicants Paid                         6,855
Applicants Awaiting Buyers              1,72 1
Payments in Process                       836
Awaiting Documents                      1,340

As demonstrated above, there are only 3,897 remaining to be processed. Of that 836 have
payments that are being processed, which brings the total to 3,06 1 applicant that are in a holding
mode due to either needing a buyer or the District is awaiting the applicant to provide
documentation in order to assess their eligibility or to process for benefits.

RECOMMENDATION C.2: The USACE Director of Real Estate determine the economic
impact of expanding the use of Government acquisitions of homes from qualified applicants who
have not identified a buyer for their home. Consider changing the policy after assessing the
economic impact.

USACE RESPONSE: Complete.

As noted in the draft report, the average cost of purchasing, maintaining, repairing when
damaged or vandalized, marketing and eventually reselling each applicant home in a declining
market costs approximately $29,000 per home which is a direct reduction of revenues returned to
the Homeowners Assistance Fund (HAF) for benefit payments. Requiring the acquisit ion,
management and disposal ofGovemment Acquisition homes would cost approximately an
additional S45.9M.

The existing policy is considered to be consistent with the major intent of the HAP which is to
get the most benefits out to the most eligible applicants. The Director of Real Estate believes the
policy is in the best interest of eligible applicants. The suggested change increases expenses that
are currently avoided when the Government policy is to actually purchase, hold in inventory and
resell as few applicants homes as possible. The consequence of changing the policy would be a
dramatic reduction in the number of eligible applicants who could receive benefits.

Aside from the additional administrative costs to the HAP, the acqui sition of residential
properties involves fiscal and program matic risks for the HAP that does not arise if the applicant
is able to find a buyer for the home. Since HAF funds are used to acquire properties, the
government acquisition of homes ties up HAF funds in illiquid assets which reduces the overall
liquidity to pay other HAP applicants as their applications are approved. Also, the homes
acquired in an effort to expedite the HA P ARRA payments may remain in the government's
portfolio after that program has ended and the ARRA funds expended ; thus increasing the
administrative demands on the traditional HAP. Appropriations for the HAP may not be
sufficient to manage a large portfolio o f Govemment acquired homes. Therefore, it is in the best




                                                            41
interests ofal l eligible applicants to find buyers for their homes before the Government will be
pennitted to consider purchasing those homes.




                                                            42
